Appellate Case: 20-1050 Document: 010110308766 Date Filed: 02/25/2020 Page: 1
FILED
United States Court of Appeal:
Tenth Circuit
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

February 25, 2020
Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,

No. 20-1050
(D.C. No. 1:19-CR-00145-PAB-1)
(D. Colo.)

v.
NICKIE NATHANIAL RICO,
Defendant - Appellant.

ORDER

Before TYMKOVICH, Chief Circuit Judge.

This matter is before the court on attorney Jesse A. Glassman's Motion to
Withdraw as Appointed Counsel, in which Mr. Glassman requests leave to withdraw as
counsel for appellant Nickie Nathanial Rico and states that Mr. Rico desires the
appointment of new appellate counsel. The district court made the requisite finding of
eligibility for the appointment of counsel Under the Criminal Justice Act, 18 U.S.C.
§ 3006A.
Upon consideration, the court grants the motion to withdraw. Pursuant to the
Criminal Justice Act, the court appoints Mr. Glassman to represent Mr. Rico for purposes
of this appeal, effective nunc pro tunc to the date Mr. Glassman filed the notice of appeal
on Mr. Rico's behalf, and terminates that appointment with the entry of this order. Mr.
Glassman shall have no continuing obligations in this appeal except to: (1) ensure that he

Appellate Case: 20-1050 Document: 010110308766 Date Filed: 02/25/2020 Page: 2

has made appropriate arrangements through the district court's eVoucher system for
payment of the transcripts he ordered on February 21, 2020; (2) forward to substitute
counsel any materials in his possession that are pertinent to this appeal; and (3) transmit a
copy of this order to Mr. Rico.
The court now appoints CJA Panel Member Jimmy Lance Hopkins to represent
Mr. Rico for purposes of this appeal. See 18 U.S.C. § 3006A. Mr. Hopkins' contact
information is:
Jimmy Lance Hopkins
J. Lance Hopkins
219 West Keetoowah
Tahlequah, OK 74464
Telphone: 918-456-8603
Email: lance.hopkins@LunaLunaLLP.net
Fax: 918-456-1407
On or before March 6, 2020, Mr. Hopkins shall enter an appearance in this appeal
on behalf of Mr. Rico. If warranted, Mr. Hopkins may file—on or before March 16,
2020: (1) a supplemental designation of record; and/or (2) a supplemental transcript order
form. The district court shall wait until at least March 17, 2020 before transmitting the
record on appeal.
The court directs its Clerk to transmit a copy of this order to the Clerk of the U.S.
District Court for the District of Colorado.
Entered for the Court
CHRISTOPHER M. WOLPERT, Clerk

by: Lisa A. Lee
Counsel to the Clerk
2

